UNITED STATES DEPARTMENT OF AGRICULTURE

       OFFICE OF INSPECTOR GENERAL




STATEMENT OF THE HONORABLE PHYLLIS K. FONG

             INSPECTOR GENERAL



                   Before the

COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

         U.S. HOUSE OF REPRESENTATIVES



                 May 3, 2007
Good morning, Chairman Waxman, Ranking Member Davis, and Members of the
Committee. Thank you for inviting me to testify before you today to discuss the Office
of Inspector General’s (OIG) views on the Federal Crop Insurance Program. The crop
insurance program represents a significant investment by the Department of Agriculture
(USDA) and Congress in the Federal safety net for America’s producers. OIG has
conducted substantial audit and investigative work on the crop insurance program and its
participants. As requested by the Committee, I will address issues of waste, fraud, and
abuse in the crop insurance program. My testimony will also review some of our most
significant findings and recommendations on the program’s current costs, regulatory
requirements, and areas of continuing concern.


I.     Introduction


Congress established the Federal crop insurance program in the 1930s as a safety net for
American agricultural producers as they strove to recover from the Great Depression and
the Dust Bowl. Over the years the program has gone through significant changes. The
1996 Farm Bill 1 created the Risk Management Agency (RMA) to provide supervision to
the Federal Crop Insurance Corporation (FCIC) and have oversight of its insurance
programs.        FCIC is a wholly-owned Government corporation that publishes insurance
regulations and manages the Federal crop insurance fund.


RMA administers the Federal crop insurance program through a joint effort with
approved insurance providers (AIP) under the Standard Reinsurance Agreement (SRA), a
cooperative financial assistance agreement allowing AIPs to sell and service Federal crop
insurance program policies. Under the SRA, FCIC reinsures or subsidizes a portion of
the losses and pays the AIPs an administrative fee–a predetermined percentage of
premiums–to reimburse the AIPs for their administrative and operating expenses
associated with selling, servicing, and adjusting crop insurance and subsequent claims.


1
    The Federal Agriculture Improvement and Reform Act of 1996, P.L. 104-127.


                                                                                          1
The Agricultural Risk Protection Act of 2000


In 2000, Congress passed the Agricultural Risk Protection Act (ARPA). 2 ARPA
significantly expanded Federal crop insurance assistance for producers by increasing their
access to more affordable insurance, enlarging the role of the private sector, and raising
premium subsidies paid by the Government.               Premium subsidies were expected to
increase by $8.2 billion over 5 years to encourage more producers to participate and also
purchase higher coverage levels. The Act enlarged the role of the private sector in the
program by prohibiting RMA from conducting research and development for any new
policies for agricultural commodities.          Rather, the Act requires that new product
development be accomplished through contracts with the private sector.


The impact of these ARPA provisions is demonstrated by two program statistics related
to the period of 2000–2006: the number of acres insured increased from 206 million to
242 million—a 17 percent increase; and the total gross liability for all policies has
increased from $34 billion to $55 billion—a 62 percent increase.


II.   The Increasing Federal Financial Responsibility


The year before ARPA was enacted, OIG issued a report to the Department, entitled
Report to the Secretary on Federal Crop Insurance Reform, 3 that brought together the
major problems we identified in prior audits and investigations. We believe that many of
the issues and concerns it presented remain timely and relevant to the program and
today’s hearing.     In our report, OIG concluded that one of the underlying factors
substantially contributing to the program losses and management problems we observed
was RMA’s policy of underwriting most of the risk for the crop losses. OIG believed–
and we continue to believe–that by assigning low overall risk to the AIPs, the AIPs have
less incentive to administer the insurance policies in accordance with the Government’s
and taxpayers’ best interest. That is to say, incentives are lacking for AIPs to effectively

2
 The Agricultural Risk Protection Act of 2000, P.L. 106-224.
3
 Report To The Secretary On Federal Crop Insurance Reform, Revised as of April 19, 1999. OIG Report
No. 05801-2-At.


                                                                                                      2
monitor risky policyholders, deny claims of questionable losses, and address
inadequacies in their own practices. We concluded that the structural framework of the
program had increased the risk or vulnerability to fraud, waste, and abuse.


To demonstrate the impact of RMA’s risk-sharing policies, we reported that more Federal
dollars were going to AIPs than were paid to producers to cover insurable losses. From
1995 to 1998, producers received a total of $5.4 billion in indemnities, but because only
$3.4 billion was covered by the producers’ premium, the Government paid the remaining
$2 billion to AIPs to cover the claims. AIPs also received, from the Government, a total
of $2.8 billion for underwriting gains 4 and administrative and operating (A&O) expenses.


The upward trend in payments (A&O expenses and underwriting gains) to AIPs that OIG
observed in 1999 continues today. From 2000 to 2006, total payments to AIPs for
underwriting gains and A&O expenses have increased to record levels—from $834
million to $1.852 billion, an increase of 122 percent. Although RMA renegotiated the
SRA in 2004 and included provisions to reduce the A&O subsidy rate, total
reimbursement for A&O expenses has increased from $552 million to $958 million—a
73 percent increase.


This has resulted in almost a 100 percent increase in the Federal Government’s
reimbursement to A&Os for each producer policy—from $417 to $829. This increase is
due to ARPA increasing the percentage share that the Government pays for most
coverage levels of insurance and the fact that more producers opted for higher levels of
coverage. (Commodity price increases may have further impacted this increase.)
Additionally, total premiums paid during this period (2000-2006) increased from $2.5
billion to approximately $4.7 billion; thereby increasing the Government’s subsidy 5 of


4
  An underwriting gain (loss) is the profit (deficit) that remains after paying claims and expenses. Insurers
generate profits from underwriting and from investment income. Their chief business is insuring against
risks for a profit, and one measure of success is whether there is money left after paying claims and
expenses. This amount, if any, is their underwriting gain.
5
  The Government subsidizes a share of the producer’s premium. ARPA increased the percentage share
that the Government pays for most coverage levels of crop insurance, effective with the 2001 crop year.
The Government’s share significantly increases for all levels of coverage but declines as producers select


                                                                                                           3
the premiums from $951 million to $2.680 billion—an increase of 182 percent. In 2000,
the Government’s subsidized share of total premium amounted to 37 percent; in 2006, it
was 59 percent of total premium.


While ARPA has been successful at significantly broadening the safety net for producers,
we believe that policymakers and program managers should reassess what constitutes an
acceptable cost to the Government.


In addition to our observations regarding the crop insurance program’s structure and
assignment of risk to the AIPs, our report summarized a number of management control
                                                                                      6
weaknesses we are still seeing today. These include conflicts of interest                 among sales
agents, loss adjusters, and/or policyholders; inadequate verification of losses and errors
by the loss adjusters (who verify the losses reported by producers and determine the
indemnity amounts owed); and inadequate or non-existent quality control processes by
AIPs and RMA. OIG continues to focus on these issues of concern in our crop insurance
program audits.


III. Strengthening the Integrity of the Federal Crop Insurance Program


As the Federal crop insurance program evolved, Congress has recognized the need to
strengthen the program’s integrity. While the passage of ARPA significantly expanded
Federal crop insurance assistance to producers, Congress also included several mandates
to improve program compliance and integrity. For example, ARPA requires annual
reconciliation of all relevant producer information by RMA and the Farm Service Agency
(FSA), authorizes the use of data mining as a new technology for targeting compliance
reviews and investigations, and requires RMA to coordinate and work with FSA to
monitor crop conditions throughout the growing season. RMA was also authorized to




higher levels of coverage. After ARPA, the Government’s share of the premium ranged from 67 percent at
50-percent coverage to 38 percent at 85-percent coverage.
6
  Business or other (familial) relationships that could encourage or prejudice independent and accurate
reporting of data such as yields, acreage, and payments.


                                                                                                     4
renegotiate the SRA’s terms and conditions once during the 2001 through 2005
reinsurance years.


The 2002 Farm Bill 7 required the Secretary to develop a comprehensive information
management system (CIMS) for RMA and FSA. Historically, RMA and FSA kept
separate data about their program participants, even though the two agencies serve the
same community of producers and some of their program data and payments are used to
support producer eligibility for other program benefits. Congress recognized the value of
reducing the waste associated with duplicative systems and simplifying the process for
producers. Implementation of a common information system would help ensure
consistency and accuracy of producer data and is, in our view, critical to improving
integrity within farm programs and reducing risk of improper payments.


Preventing Improper Crop Insurance Payments


The identification and elimination of improper payments is a major Governmentwide
initiative mandated by the Improper Payments Information Act of 2002 (IPIA). 8 All
Federal agencies, including RMA, are required to find out where they are most
susceptible to making significant improper payments, estimate the size of the problem,
identify what caused the improper payments, and take action to prevent them.


OIG has monitored RMA’s actions and progress in complying with these important
mandates. In September 2003, OIG issued an audit report assessing the Department’s
actions to implement significant portions of ARPA. 9 We found that, to its credit, the
Department had initiated reasonable actions to implement most of ARPA’s significant
provisions. However, the required annual reconciliation of all relevant RMA and FSA
data was not accomplished.          We recognized that there were significant barriers to
implementing an effective reconciliation, including differences in RMA’s and FSA’s
program definitions.      For example, RMA allows the producer to subdivide his/her

7
  The Farm Security and Rural Investment Act of 2002, P.L. 107-171.
8
  The Improper Payments Information Act of 2002, P.L. 107-300.
9
  USDA Implementation of the Agricultural Risk Protection Act of 2000. Audit No. 50099-12-KC.


                                                                                                5
farming operation into separate units and to opt whether to have insurance coverage on
each unit; FSA defines a farm unit as a total operational unit within a county and it issues
payment to that unit.


We recommended that the Department re-engineer its data reporting for each producer,
landowner, and policyholder under a single integrated comprehensive information
system. In response, RMA stated that it intends to fulfill ARPA’s requirements through
its (and FSA’s) current CIMS efforts. However, the recent timetable provided to us by
RMA indicates that full implementation of CIMS is not expected until 2012. As a result,
the mandated reconciliation of RMA and FSA data will not occur until that year or later.
In the interim, we would recommend that Congress work with RMA and FSA to
determine whether implementation of CIMS can be expedited or whether some other
action can reasonably be taken to fulfill ARPA’s mandate in this regard.


We are currently reviewing RMA’s implementation of the IPIA. With the concurrence of
the Office of Management and Budget (OMB), RMA has instituted an alternative to the
process required by the IPIA. Due to its limited resources, RMA has developed a
National Operations Review program that will review a sample of loss claims from AIPs
on a 3-year cycle to establish an error rate for improper payments. Although OMB has
approved RMA’s approach, we are discussing with RMA our concerns that a statistically
valid sampling method will not be used to select claims. Whether this process will be
effective in fulfilling the goals and requirements of the IPIA may not be known for some
time.


The Standard Reinsurance Agreement: Preserving Federal Interests


OIG monitored RMA’s renegotiation of the SRA and offered RMA a number of
suggestions to improve program integrity. We suggested that RMA include specific
authority in the SRA that would allow the agency to establish a standard quality control
review system by regulation, strengthen its conflict of interest provisions, strengthen the
oversight and monitoring of large claims, and reduce administrative reimbursement rates.



                                                                                          6
We acknowledged and concurred with RMA’s attempts to reduce the Government’s
share of the risk, the A&O reimbursement rate, and the amount of the premium AIPs
could retain (underwriting gains).


Although RMA had some success in strengthening SRA provisions, much of what was
unfavorable to the AIPs was modified during negotiations with the AIPs. Our report,
Renegotiation of the Standard Reinsurance Agreement, 10 issued in January 2005,
summarized our suggestions on ways RMA could strengthen program integrity, as well
as some of the significant changes made to RMA’s proposals after public comment.
RMA was successful in strengthening program integrity by improving the conflict of
interest provisions and oversight of adjusters; establishing its option to review large
claims before payments are issued (loss claims in excess of $500,000); obtaining
authority to have companies review policies under a quality control environment driven
largely by data mining; and identifying anomalous financial behavior.11                            In its
renegotiation of the 2005 SRA, and as required by ARPA, RMA established an entirely
new process that requires AIPs to review policies identified as anomalous by RMA data
mining. OIG will continue working to monitor and evaluate the effectiveness of RMA’s
efforts in these areas.


IV. Weaknesses and Vulnerabilities Persist in the Federal Crop Insurance Program


OIG Investigations of Fraud in the Crop Insurance Program


The great majority of producers and private sector business entities that participate in the
crop insurance program are, of course, honest and determined to properly comply with its
requirements. The improper conduct of a minority of participants can tarnish perceptions
of the program’s value as part of the Federal safety net for producers. OIG continues to
investigate fraud and other criminal activity in the crop insurance program across the



10
  Audit No. 05099-109-KC.
11
  For example, producers who have very large approved yields relative to their peers and large, multi-year
claims.


                                                                                                         7
United States. Since fiscal year 1999, our investigations have resulted in 69 indictments,
52 convictions, and over $54 million in monetary recoveries.


Our investigative work has shown these cases to be—compared to fraud affecting other
USDA farm programs—particularly complex in their details and correspondingly time-
consuming to investigate. Crop insurance cases frequently involve multiple subjects such
as producers, landowners, sales agents, and insurance adjusters. It is not uncommon for
individual crop insurance fraud cases to involve comparatively large amounts of
monetary losses to USDA, sometimes reaching into the millions of dollars per producer.
We continue to work with USDA and the U.S. Department of Justice to aggressively
pursue fraudulent crop insurance schemes that undermine the program and burden
taxpayers.


Common Fraud Schemes


OIG’s investigation into potential criminal activity in the Federal crop insurance program
has revealed a series of schemes that are used by some producers and business associates
to defraud the program and improperly obtain crop insurance payments. Among the
primary schemes we have observed are the following:


   ¾ Claiming losses on crops that were never planted or that were intentionally made
       to fail. (e.g., responsible farming practices are intentionally not used, and the
       cause of the crop loss is inconsistent with other area producers.)


   ¾ Agents and adjustors collude to manufacture losses. (e.g., an adjuster moves with
       the agent from company to company.)


   ¾ Creation of sham farming entities to illegally obtain crop insurance indemnity
       payments. (e.g., setting up new entities or contracts to hide prior bad loss
       experiences.)




                                                                                        8
   ¾ Concealing actual production of insured crops to receive higher indemnity
       payments. (e.g., claiming crop losses when none have occurred.)


   ¾ Falsely reporting planting dates to receive crop insurance payments. (e.g.,
       backdating forms in order to ensure that the producer’s planting dates are within
       the planting dates approved by RMA.)


   ¾ Shifting crops to create loss units, wherein a producer attributes production from
       one section of insured land to either a non-insured parcel of land or another non-
       loss unit.


Major Investigations


OIG crop insurance investigations have resulted in successful prosecutions and monetary
recoveries from individuals engaged in each of the above schemes. I would like to
present summary information to the Committee about several prominent and
representative cases.


In terms of numbers of individuals involved, convictions gained, and court-ordered
monetary recoveries, one of our most significant cases was a 3-year OIG investigation
that revealed a complex conspiracy to defraud the FCIC and several private insurance
companies. The owners of a North Carolina corporation received more than $9.28
million in crop insurance payments and attempted to obtain an additional $3.8 million via
schemes involving hiding and shifting tomato production (to inflate losses) and
submitting false reports and documents to insurance companies. The corporation
overstated its total insured acreage in order to collect larger insurance payments. Its
owners staged a “hailstorm”—complete with cocktail ice, bruised tomatoes, and a
chemical spray in lieu of actual frost—and photographed the scene in order to document
non-existent crop damages. Eight individuals ultimately pled guilty to charges such as
conspiracy, money laundering, crop insurance fraud, perjury, and false statements.




                                                                                       9
Sentences ranged from 8 to 76 months of imprisonment and forfeiture/restitution totaled
$7.3 million and $9.15 million, respectively.


A second significant case involved a North Dakota farmer and insurance broker who was
ultimately ordered to forfeit $5.9 million to the Government after he and his farm
business entities were found guilty at trial of 19 criminal charges. The scheme involved
the creation of seven sham farming entities made up of family members and insurance
agents employed by the insurance broker. Crop insurance policies were written-up for
each of these fraudulent operations. Insurance losses were fabricated by shifting
production from one sham farm entity to another, thereby creating false loss units.
Parties with no insurable interests thereby received Federal indemnity payments. In June
2003, the insurance agent was sentenced to serve 60 months in prison and both of the
farming entities were placed on probation for 5 years.


A final example of the types of schemes OIG has encountered pertained to a Texas crop
insurance agency owner who was also a producer. He conspired with a crop loss adjuster
in a scheme involving false statements about his wheat, cotton, and grain sorghum
insurance policies and indemnity claims.         Our investigation revealed that these
individuals fraudulently obtained crop insurance benefits by having the crop loss adjuster
prepare appraisal worksheets and production worksheets without conducting field
inspections and appraisals. The producer also provided false and fictitious receipts on
seed purchases. The producer was ultimately sentenced to 41 months in prison, 36
months of supervised release and was ordered to pay $448,000 to RMA. He was also
prohibited from engaging in the sale of crop insurance and was excluded from USDA
programs. The crop loss adjuster was sentenced to 2 years’ probation and a similar
restitution.


OIG Audit Findings: The Need for Improved Federal and Private Sector Oversight


OIG has identified the need for strong, integrated management controls and effective
interagency communication, coordination, and program integration as major management



                                                                                       10
control weaknesses in our 2004, 2005, and 2006 Management Challenges reports to the
Secretary. 12 Our prior audits and investigations have led us to conclude that RMA must
adequately address these challenges if it is to mitigate the risks for fraud, waste, and
abuse in crop insurance programs. While we recognize the positive efforts taken by
RMA (such as during the SRA negotiation), we believe that effective interagency
communication and program integration is essential for ARPA’s successful
implementation, in addition to enhancing the program integrity of the various farm
programs that build upon the data, payments, and compliance activities of several USDA
agencies.


In our 1999 report, we made a number of suggestions to strengthen the program’s
structural framework and improve its management controls; several remain directly
relevant for current discussions about the program. Our primary suggestions included the
need for RMA to take a more proactive role in monitoring and providing oversight of the
AIPs and, most importantly, to strengthen the quality control (QC) review system.


We reiterated many of these same recommendations in our March 2002 report on RMA’s
                       13
QC review system.           We found that, despite an 8-year effort in response to earlier OIG
and Government Accountability Office reports, RMA had not developed a reliable QC
review system capable of evaluating the private sector’s (AIP) delivery of the program.
Basic policy questions remain, such as what constitutes an error, the amount of improper
payments made, and at what level program delivery needed to be assessed (e.g., the AIP
or crop insurance program as a whole). Since program delivery relies on private AIPs,
they must be the first line of detection and prevention of program abuse and waste and
improper payments. It is essential for RMA to strengthen its oversight of the AIPs’ QC
review systems and to validate that systemic causes for errors are identified and
corrected. To date, RMA and OIG have still not reached agreement on the actions
necessary to correct the concerns we have raised.


12
   The “Reports Consolidation Act of 2000,” P.L. 106-531, requires OIG to annually identify and report on
the most serious management challenges facing USDA and its agencies.
13
   Monitoring of RMA’s Implementation of Manual 14 Reviews/Quality Control Review System, Audit
No. 05099-14-KC.


                                                                                                       11
Our audits and investigations have consistently identified problems in the underwriting
and loss adjustment review processes and with conflicts of interest, resulting in
fraudulent and/or improper payments. We believe that an effective and independent QC
review system, in tandem with effective monitoring and oversight by RMA, could have
prevented or detected many improper payments. I would like to briefly discuss several
OIG audits that illustrate situations wherein effective QC systems and improved RMA
oversight could better serve the Government’s interest in preventing excessive or
improper crop insurance payments.


The Watermelon Insurance Pilot Program
In response to allegations of abuse in this program in Texas, we initiated three reviews.
One focused on RMA’s overall approval and review process and two focused on the
eligibility of producers and the validity of their indemnity payments. OIG found that
RMA, despite evidence that fall watermelons were not a suitable crop for South Texas
and were not likely to produce a crop, approved this crop’s inclusion in a pilot insurance
program. RMA did not provide adequate oversight of the pilot program’s development
and approval process, particularly with respect to the actuarial risk associated with the
crop. Our findings questioned $21 million in indemnity payments to fall watermelon
producers in the region. Prior to our audit, RMA promptly moved to suspend the pilot
program when it became aware of its impact on the market prices and allegations of
abuses.


The two audits 14 that focused on producer eligibility and the validity of their indemnity
payments found that, because the risk associated with planting a fall crop had not been
adequately determined, the pilot program created a “moral hazard,” whereby producers
appeared to willfully neglect prudent management practices by planting an extremely
large amount of acreage with a crop that had no more than a 10-percent chance of making
it to harvest. Misrepresentation by the producer, inadequate loss adjustments, and a



14
  Watermelon Claims in South Texas, Audit No. 05601-7-Te, August 2001; and Review of Large
Insurance Claim for Watermelons in South Texas, Audit No. 05601-9-Te, September 2002.


                                                                                             12
conflict of interest between the insurance agent (he leased acreage to the producer) and
the producer caused over $5.5 million in improper indemnities paid.


In response to OIG’s audits, RMA agreed to strengthen conflict of interest provisions to
require disclosure of any business relationship between the insured parties and agents.
RMA is in the process of implementing some of these provisions. 15


The Adjusted Gross Revenue Program
OIG’s 2007 review of a second pilot program, the Adjusted Gross Revenue Program
(AGR), 16 substantiated our concerns about the AIPs’ review systems (including QCs).
During insurance years 2002-2003, 9 insurance providers in 18 States paid AGR
indemnities totaling over $24 million. We reviewed 11 claims paid by 5 providers
totaling $6.9 million, and we questioned $2.3 million of the $6.9 million in indemnity
payments issued.        Four of the five insurance providers we reviewed had either issued
policies to producers whose eligibility was unsupported or paid indemnities for
unsupported loss claims. AIP reviews at multiple levels–the application, underwriting,
loss adjustment, and QC reviews–did not ensure that policies and loss claims met RMA
regulations. Furthermore, RMA was not aware of the problems and, therefore, could not
correct the AIPs’ noncompliance.             RMA has since agreed to implement procedures
requiring onsite file reviews during the implementation of selected pilot programs.


Current OIG Audit Efforts


We currently have a total of seven audits pertaining to crop insurance issues that are
ongoing, and I would like to briefly describe for the Committee two of the more
noteworthy audits. We have initiated an audit of RMA’s compliance activities. We are
focusing on (1) organizational structure (is the control environment adequate to support

15
   Although the 2005 SRA strengthened the conflict of interest provisions, RMA issued notices in 2005 and
2006 to clarify the provisions. However, RMA’s conflict of interest disclosure form for AIPs and other
parties is still in the clearance process.
16
   The Adjusted Gross Revenue (AGR) Program is a non-traditional crop insurance pilot program where
producers insure their farm revenue against losses caused by both natural disasters and market fluctuations.
Adjusted Gross Revenue Program, Audit No. 50601-4-SF.


                                                                                                        13
and sustain effective controls), (2) risk assessments (are internal and external risks and
program vulnerabilities identified), and (3) policies and procedures (are controls over
compliance activities in place and are they effective to identify and correct systemic
weaknesses). We plan to report on this audit by the end of the year.


Another major effort we have underway is looking at RMA’s management controls to
ensure the timeliness and accuracy of indemnity payments for nursery crops resulting
from Hurricanes Katrina and Wilma in Florida. As of January 2007, Federal crop
insurance indemnity payments for losses of nursery crops in Florida due to hurricanes
Katrina and Wilma totaled approximately $264 million. We are evaluating the
effectiveness of the AIPs’ QC review system to detect improper payments and the
effectiveness of RMA’s oversight and monitoring of the AIPs on the indemnities paid.




V.    Strengthening the Program Framework and Management Controls for the
Crop Insurance Program: Administrative and Legislative Recommendations


Recommendations for USDA


If fully implemented, existing laws affecting the Federal crop insurance program (ARPA,
2002 Farm Bill, IPIA) would help strengthen the integrity of the crop insurance program.
However, we also believe that more emphasis on program design, management controls,
compliance, and interagency communication would reduce improper crop insurance
payments. As we have recommended in our annual Management Challenges reports to
the Secretary, we believe the following actions are critical to provide effective
management of the crop insurance program and other farm programs and to prevent
fraud, waste and abuse.


     ¾ Accelerate development and implementation of CIMS. Uniform program data
        and integrated data systems need to be developed and shared by RMA and FSA.
        Such a system may negate the time consuming reconciliation of producer



                                                                                       14
         information between the two agencies. We believe that this project can serve as a
         model for further information sharing and coordination to ensure compliance and
         integrity in other farm-related agencies (e.g., Natural Resources Conservation
         Service) in USDA. Currently, full CIMS implementation is not anticipated until
         2012.


     ¾ Accelerate development and implementation of an effective QC review
         system. A QC review system needs to incorporate elements that would provide
         an assessment of the delivery of the crop insurance program, whether at the AIP
         level or the program as a whole. While RMA requires AIPs to report
         discrepancies in policy data that may affect premiums, liabilities, and indemnities,
         individual AIPs apply inconsistent criteria for identifying and reporting errors.
         These inconsistent criteria provide unreliable and inconsistent results with respect
         to error rates and evaluating program delivery. We also believe the QC system
         should include incentives for good performance and disincentives for excessive
         error rates.


     ¾ Finalize Implementation of ARPA. In addition to annual reconciliation of RMA
         and FSA data, ARPA required RMA to identify and review claim anomalies that
         can be identified to any sales agent or loss adjuster.17 Also, ARPA allowed RMA
         to impose civil fines and to disqualify producers, agents, loss adjusters, and AIPs
         for up to 5 years for willfully and intentionally providing false or inaccurate
         information or failing to comply with a crop insurance requirement. RMA has
         taken some actions to implement these provisions, but they have not been
         finalized.




17
   ARPA required RMA to identify and review: (1) any agent where the loss claims associated with such
sales by the agent are equal or greater than 150 percent of the mean for all loss claims associated with such
sales by all other agents operating in the same area, and (2) any person performing loss adjustment services
relative to coverage where such loss claims resulted in accepted or denied claims equal to or greater than
150 percent of the mean for accepted or denied claims for all other persons performing loss adjustments in
the same area.


                                                                                                         15
   ¾ Finalize Conflict of Interest Policies and Procedures. RMA issued stronger
       conflict of interest provisions in the 2005 SRA, but the disclosure process has not
       been finalized. OIG provided feedback to RMA as it moved forward to issue
       guidance clarifying these SRA provisions. Recently, OIG provided comments to
       RMA on the draft of the conflict of interest disclosure form that is to be
       completed by AIP employees, agents, and loss adjusters.


   ¾ Expand Data Mining. RMA could improve program integrity and deter fraud,
       waste, and abuse by expanding data mining of program data for anomalous
       behavior or patterns by the producers, agents, and loss adjusters. The Department
       should also expand its data mining capabilities to other farm programs.


Recommendations for Congress: USDA’s 2007 Farm Bill Proposal


USDA’s 2007 Farm Bill proposals acknowledge that crop insurance fraud and abuse
continues to be a serious concern and that an expansion of program compliance and data
mining activities is needed to identify and sanction “bad actors” who are abusing the
program. We agree.


USDA’s Farm Bill proposal summary states that “[C]ertain statutory requirements of the
crop insurance program have put its future integrity and actuarial soundness into
question.” The changes proposed by the Secretary can, if passed, help meet the challenge
of materially improving the compliance, integrity, and actuarial soundness of the
program, yet continue to provide the safety net to the American producers. We support
the Department’s proposals to improve the program with statutory adjustments, including
the allowed loss ratio, renegotiating the SRA, AIP risk sharing, premium subsidies, and
compliance activities.


OIG, through our audit and investigative efforts, will continue to support the
Department’s goal of improving the effectiveness and integrity of the Federal crop




                                                                                       16
insurance program, as well as protecting the safety net for American producers. team and I
will be pleased to address any questions you may have.

This concludes my testimony. I again want to thank the Committee for the opportunity to
discuss OIG’s work and perspectives regarding the Federal crop insurance program. I
will be pleased to address any questions you may have.




                                                                                       17
